B

IN THE
SUPREME COURT OF THE UNITED STATES

ORIGINAL

Angela Jane Johnson- PETITIONER, PRO SE
Audrey A. Johnson-Duncan- CO-PETITIONER

FILED
APR 2 0 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

VS.

USA c/o Solicitor General of the United States, Beginning w/ Court of
Appeals for Federal Circuit, ET AL.-RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

COURT OF APPEALS FOR FEDERAL CIRCUIT, ET AL.
PETITION FOR WRIT OF CERTIORARI

Angela Johnson and Audrey Johnson-Duncan
24 Revere 13
Jackson, TN 38305
731-513-0975; 731-571-3656

QUESTIONS PRESENTED

PLEASE SEE PAPER ENCLOSED

(1) CAN STATES OVERTURN FEDERAL STATUTES BY AND ENFORCEABLE
FEDERAL GOVERNING BODIES WITHOUT REBUKE OR AWARDING
EXPIATION, SPECIFICALLY UIFSA AND UCCJEA FEDERAL REGULATIONS
AND STATUTES, RESULTING IN EMPIRICALLY PROVEN HARM TO NATURAL
USA CITIZENS, EMPIRICALLY PROVEABLE AS WELL AS ECONOMIC AND
SPIRITUAL JUBILEE 2015-2016 DEVESTATION;
(2) CAN CRIMINAL ACTIONS TO BE TRIED, SPECIFICALLY AGGRAVATED
ASSAULTS LISTED IN A PROTECTIVE ORDER APPLICATION AND ISSUANCE,
BE ROLLED INTO DOMESTIC LAW CASE FROM CRIMINALCOURT
“LEGALLY”, THWARTING THE NATURAL CITIZEN'S RIGHTS AS A VICTIM OF
THOSE AGGRAVATED ASSAULTS THE RIGHT TO TRIAL AGAINST THE
ABUSER AND IMPRISONMENT THEREOF;
(3) CAN CRIMINAL ACTIONS AGAINST A CHILD IN UTERO RESULT IN NEED
FOR JUSTICE AND THE VIOLATION OF NATURAL CITIZEN'S RIGHTS
BECAUSE OF REFUSAL TO ALLOW JUSTICE BE AWARDED EXPIATION AS
WELL?

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[ x] All parties do not appear in the caption of the case on the cover page. A list of all parties to the
proceeding in the court whose judgment is the subject of this petition is as follows:
COURT OF APPEALS FOR FEDERAL CIRCUIT
FEDERAL CLAIMS COURT
OKLAHOMA STATE SUPREME COURT
DISTRICT COURT OF TULSA COUNTY, OKLAHOMA- DOMESTIC AND FAMILY LAW
TULSA COUNTY OKLAHOMA CRIMINAL COURT
CHANCERY COURT OF MADISON COUNTY, JACKSON, TENNESSEE
TULSA POLICE DEPARTMENT, TULSA, OKLAHOMA
MADISON COUNTY TENNESSEE, DEPARTMENT OF CHILD SUPPORT
ENFORCEMENT

RELATED CASES

I. PLEASE SEE EXHIBITS 1A THROUGH 2D COMPLETELY. PLEASE NOTE SOME
SUBPOENAED INFORMATION FROM FEDERAL CLAIMS COURT WAS NOT
ANSWERED, HONORED AND WAS IGNORED, THE BIGGEST OFFENDERS BEING
TULSA OKLAHOMA DISTRICT COURT AND TULSA OKLAHOMA POLICE
DEPARTMENT. PLEASE ENFORCE THOSE SUBPOENAS YOURSELF, AS NEITHER I
NOR FEDERAL COURT COULD PERSUADE THEM TO PROVIDE EVIDENCE,
II. PLEASE NOTE TULSA DISTRICT COURT CASE HISTORIES ARE UNOFFICIAL AND
SUBJECT TO CHANGE, PER THEIR WEBSITE DISCLAIMER, AND THEY HAVE
CHANGED MY OWN CASE HISTORY AS TIME HAS GONE ON,
III. THIS CASE AND RELATED CASE INFORMATION IS EXTREMELY LONG, ENDURING
ABOUT 20 YEARS, AND BECOMES IMPOSSIBLE AND BORING TO FULLY DISCLOSE;
HOWEVER, THE RELEVANT ISSUES TO APPEAL ARE INCLUDED IN EXHIBITS 1A
THROUGH 2D.

TABLE OF CONTENTS

COVER SHEET
PETITION FOR WRIT OF CRETIORARI (Pl-16)
HANDWRITTEN MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
OPINIONS BELOW
COURT DIRECTED COVER SHEET
QUESTION(S) PRESENTED
LIST OF PARTIES/RELATED CASES
TABLE OF CONTENTS AS DIRECTED BY COURT/INDEX TO APPENDICES
JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION (SIGNED 4/19/2021 UPON ORIGINAL ATTEMPT TO SUBMIT, BUT RETURNED
FOR VAROUS RULES REQUESTING US TO COMPLY OR CLARIFY)

INDEX TO APPENDICES

APPENDIX A: FEDERAL ONLY- EXHIBIT 1A THROUGH 2D, AS CASE IS NOW FEDERAL

APPENDIX B: STATE ONLY- EXHIBIT 1ATHROUGH 1Z8, BEFORE PRESENTATION TO
FEDERAL COURT, ALTHOUGH SOME PAPERWORK ALSO FEDERAL

TABLE OF AUTHORITIES CITED

CASES

•
•
•
•

•
•
•
•

•
•
•
•

•

PD-EXHIBIT 1 C AND D
PD-EXHIBIT 1C AND D
PD-EXHIBIT 1 D
PO-EXHIBIT 1 F PARTIALLY FUFILLED SUBPOENA, STILL MISSING APPLICATION
FOR PROTECTIVE ORDER PO 2002-413 AND PROTECTIVE ORDER ISSUANCE PO2002-413 CASE FILE
FD-2002-728 TULSA OKLAHOMA DISTRICT COURT CASE FILE
RD-60110 CHANCERY COURT CASE FILE MADISON COUNTY, TENNESSEE AT
JACKSON
04-1876 MADISON COUNTY SHERIFF'S DEPT INCIDENT REPORT REGARDING
PROTECTIVE ORDER PO-2002-413 IN OK, TN VIOLATION CASE 04-1876 CASE FILE
INITIAL REQUEST CS ENFORCEMENT MADISON COUNTY TENNESSEE 2004 CASE
FILE (denied on 2 children both TN bom and TN residents from birth, because blocked by exhusband’s attorney. This led to my filing in FD-2002-728 dated August 4, 2004 for necessary
child support as ex-husband denied parentage of my son but Judge Clifford Smith could issue
on a temporary basis until Jurisdiction battle over, but refused to ever issue order nor did I
receive $.01 cent for my son, Nicolas David Johnson)
FD-2003-5000 TULSA OKLAHOMA DISTRICT COURT CASE FILE
FIRST APPEAL SC OK Case No 100,466 CASE FILE
SECOND APPEAL SC OK Case No 114,749 CASE FILE
SECOND REQUEST CS ENFORCEMENT MADISON COUNTY TENNESSEE 2016 CASE
FILE (accepted but at end of about 3-4 years, yielded to OK CS Enforcement, allowing OK CS
Enforcement to communicate directly with me, bypassing UIFSA and Dept of Homeland
Security separation)
PLEASE NOTE EXHIBITS 1A THROUGH 2D

STATUTES AND RULES

•

UIFSA REGARDING MAJORITY OF “FAMILY MEMBERS” IN DETERMINING
ESTABLISHMENT OF HOME STATE JURISDICTION IN CASES INVOLVING
CHILDREN AND DISSOLUTION OF FAMILIES
• UCCJEA REGARDING MAJORITY OF “FAMILY MEMBERS” IN DETERMINING
ESTABLISHMENT OF HOME STATE JURISDICTION IN CASES INVOLVING
CHILDREN AND DISSOLUTION OF FAMILIES
• UCCJEA Definition ofHome State As Majority OfDissolved Family Members Residency In
Determination And Also Nativity, specifically, Oklahoma Codified Federal UCCJEA in it's own
Title 43 beginning at section 551-101. Section 551-102(7) Definition of Home State: “...In the
case ofa child less that six (6) months ofage, the term means the state in which the child lived
from birth with the parent or person acting as a parent. A period of temporary absence of the

•
•
•
•

•

parent or person acting as the parent is part ofthe period.” Further, when TN gave jurisdiction
to OK they also indirectly held it, making final order difficult to understand, by a disclaimer
quoting TCA 36-6-222 “inconvenient forum”, with TN being the obviously convenient forum,
that being the incorporated “upholding” of UCCJEA Statute Definition ofHome State Between
States concerning the majority of dissolved family's members in determining home state
jurisdiction.
IRS LAWS CONCERNING CHILD TAX CREDIT LAWS UNDER DEPARTMENT OF
TREASURY
OK STATE CHILD SUPPORT COMPUTATION GUIDELINES ENFORCED FEDERALLY
BYUIFSA
TN STATE CHILD SUPPORT COMPUTATION GUIDELINES ENFORCED FEDERALLY
BYUIFSA
CRIMINAL LAW VICTIMS' RIGHT TO PROSECUTE PROTECTIVE ORDER AND
DEMAND JUSTICE AND IMPRISONMENT OF AGGRAVATED ASSAULTS IN STATE OF
OKLAHOMA AND FEDERALLY UNDER DEPARTMENT OF JUSTICE, AS WELL AS
IMPRISONMENT FOR BREAKING PROTECTIVE ORDER AND THREATENING ONE
OF THE VICTIMS AFTER CHILD'S BIRTH
CONSTITUTIONAL AMENDMENT 14 UNDER UNITED STATES OF AMERICA
CONSTITUTION

APPENDIX/EXHIBIT INDEX

•
•
•
•
•
•
•
•
•
•
•

•
•

•
•
•
•

•
•
•
•
•

•
•

EXHIBIT 1A Tulsa Women’s Clinic
EXHIBIT IB Riverside Park Apartments
EXHIBIT 1C Tulsa Police Department, Riverside Division
EXHIBIT ID Rex Mann ChiefPolice Department/Tulsa Police Department
EXHIBIT IE Vintage On Yale Apartments
EXHIBIT 1F Tulsa Criminal Court
EXHIBIT 1G Audrey's Birth Certificate
EXHIBIT \H Audrey's Birth Notification During Protective Order; Intelius proofof Vintage On
Yale incident Tulsa Police later said they could notfind anything except one citizen crime report
EXHIBIT II Chancery Court Proceedings Madison County, Tennessee
EXHIBIT 1J Tulsa Ordered Mother And Child To Appear In Tulsa In Domestic Law
EXHIBIT IK Dropping of protective order rolled into domestic law case, from criminal court,
with reported aggravated assault by description, protective order without trial or parties
present
EXHIBIT 1L Transcript oforderedjoint custody between Mother and abuser with dropped
charge, Tulsa, Oklahoma, wanting nursing Mother to give newborn to abusive husband alone
EXHIBIT 1M Proofofmediation and the subsequent haggling and leverage against Mother
andfollowing was granting of divorce as decree could not be agreed upon to befiled as too
much loss to the Mother, the same day, February 19, 2003, the agreed upon order was agreed
upon by both parties, under oath, before judge, with both lawyers and witnesses present. The
court lost that transcript
EXHIBIT IN Notarized deposition Judge Clifford Smith regarding upholding ofevents that day
since transcript lost
EXHIBIT 10 Requested transcript ofproceedings February 19, 2003 in case found
EXHIBIT 1P Notarized deposition witness and attorney Russell Carson regarding upholding of
events that day since transcript lost
EXHIBIT 1Q Madison County Tennessee Child Support Request File 2004
A) Nicolas David Johnson Birth Certificate
B) Nicolas David Johnson DNA Parentage Test Report
C) Aug 4, 2004 Request For CS and consolidation of FD-2002-5000 into FD2002-728for the purposes ofchild support as Madison County, TN denied
CS Enforcement to us based upon a phone callfrom ex-husband's attorney.
D) Nicolas David Johnson Death Certificate
EXHIBIT 1R Angela Jane Johnson Birth Certificate and Diploma Secondary School
establishing longstanding TN residency
EXHIBIT 1S Tulsa District Court February 2004, first appealable order with regards to
jurisdiction
EXHIBIT IT Oklahoma State Supreme Court Case File 2004
EXHIBIT 1U 2007 Final Decree ofDivorce, Child Custody and Child Support Plan
EXHIBIT IV Tulsa District Court Filing 2015 ER Modification Filing and Summons Issued
(Jubilee Year to Jews, absence ofwhich steals home and pilgrimage Blessings); 2016 Tulsa
Filing Motion To Modify (once case opened on ER basis in 2015 and allegations never proven
because outright lies); Also, Defendant’s Response
EXHIBIT 1W Oklahoma Supreme Court Modification/Breach of Contract Arguments Both
Appellee and Appellant 2016-2017, Case File and Ruling
EXHIBIT IX Tulsa District Court Order of CS Offset intermixing IRS and CS orders illegally

•

•

•
•
•
•
•

•

•
•

•
•
•

EXHIBIT 1Y 2017 Case File Madison County Child Support Enforcement (upon unwanted
notes enclosed in envelopes ofagreed upon halved child supportfrom computation) beginning
6/1/2017
EXHIBIT 1Z1 Proofmodified taxes even erasing myselfso ex-husband could get more money
that year and they would reverse my child support offset order, which he never received more
money because he wasn't due it, and they never reversed the CS offset, but stole that money
from us, already paltry amount.
EXHIBIT 1Z2 Trial Brief/Presentation July2018 (finally hearing complaints and issues filed
2015 that stopped our pilgrimage to Israel andfollowing Springtime 2018 3 seizures I endured)
EXHIBIT 1Z3 Tulsa District Court neglect subpoenaed transcripts 2017, 2018; 2017 and 2018
rulings a orders
EXHIBIT 1Z4 West Tennessee Healthcare ER Care Seizure 1 2018 and Seizure 3 2018
EXHIBIT 1Z5 St. Francis Hospital ER Care Seizure 2 2018 with elevated pro BNP
EXHIBIT 1Z6 West Tennessee Neuroscience And Spine Center Record with right palmar and
right sural calfnerve damage remaining after approximate year ofphysical therapy after initial
damage, MRIs with proofofno other problems causing the episodic epilepsy other than stress
induced (pre-trial in another state almost 20 years litigation and issues with abuser who can
drag us to court at whim with lies ofER denied visitation and other things and no proofto steal
Jubilee and make it extremely difficult for us to stay afloat while litigatingfinancially)
EXHIBIT 1Z7 Proofoferased/changed Tulsa District Court Docket Entry on Feb 19, 2003, as
the only evidence of the ordering of the divorce and granting from the bench in 2003 is the OK
Supreme Court Order, which memorializes it. Later it was alleged we filed decree ofdivorce
that day, but we did notfile it, what we haggled over in mediation and so that is a lie. The only
parties privy to that would have been present at mediation and much later changed the docket
sheet, as the first appealable order to argue jurisdiction wasn't until February 2004, as
evidenced in first appeal to Oklahoma Supreme Court, not February 2003. It was only granted
from the bench and memorialized in later orders that memorialized it.
EXHIBIT 1Z8 Tulsa Oklahoma notifying Tennessee resident ofcessation of child support
services directly as though no Madison County Tennessee office, and that is illegal.
EXHIBIT 2A United States Court ofFederal Claims dismissal of Seven Grievances, Part 1
Dealings, Part 2 Court ofAppeals Acceptance, Part 3 Formal Appeal To Federal Circuit
Appeals Court with Federal Arguments
EXHIBIT 2B Federal Appellate Court allowance to proceed in forma pauperis and proofof
mailings of ignoredfederal subpoenas
EXHIBIT 2C Federal Appellate Court ruling against us
EXHIBIT 2D Federal Appellate Court instructions to appeal to Supreme Court ofthe United
States

JURISDICTION

[x ] For cases from federal courts: (primarily)
The date on which the United States Court of Appeals decided my case was 1/21/21.
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of Appeals on
, and a copy of the order denying rehearing appears at
the following date:
Appendix______.
[ ] An extension of time to file the petition for a writ of certiorari was granted to and
(date) in Application No.
A
including
(date) on
The jurisdiction ofthis Courtis invoked under 28 U.S.C. Squid 1254(1).
Note- We are seeking expiation for denied Justice under DOJ, HHS, IRS-DOT, O Other
Federal Bureaus and Federal Contracts of UIFSA and UCCJEA Child Support and IRS issues as
those are Federal laws not State laws, and because of the multiplicity of the issues, cannot
be sorted individually, but are 7 distinct grievances as previously plead and enclosed.

[ ] For cases from state courts:
The date on which the highest state court decided my case was 5/3/04; 2/23/18;
Oklahoma State Supreme Court both decisions. A copy of that decision appears at
Appendix B Exhibit IT and 1W. Note- At this point, the issue is not that we want to
remove jurisdiction from Oklahoma, but to point out the erroneous Jurisdiction decision,
and to be awarded expiation for damages that resulted as a result of stolen Jurisdiction
over almost 20 years. The parties are divorced and the child has reached the age of
majority.
[ ] A timely petition for rehearing was thereafter denied on the following
, and a copy of the order denying rehearing appears at Appendix
date:
[ ] An extension of time to file the petition for a writ of certiorari was granted to and
including_____(date) on
(date) in Application No.___A
The jurisdiction of this Court is invoked under 28 U.S.C. Squid 1257(a).

Note- At this point, the issue is not that we want to remove jurisdiction from Oklahoma, but to
point out the erroneous Jurisdiction decision, and to be awarded expiation for damages that
resulted as a result of stolen Jurisdiction over almost 20 years. The parties are divorced and the
child has reached the age of majority.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
•
•
•
•
•

AMENDMENT 14
UNIFORM CHILD CUSTODY JURISDICTION ENFORCEMENT ACT ET AL
UNIFORM INTERSTATE FAMILY SUPPORT ACT ET AL
INTERNAL REVENUE SERVICE CONCERNING CHILDREN ET AL
DEPARTMENT OF JUSTICE LEGAL OVERSIGHT OF CRIMINAL ALLEGATIONS AND
PROTECTIVE ORDERS FOUND WORTHY TO BE ISSUED, INTO FAMILY AND
DOMESTIC LAW CASES PRE TRIAL IN CRIMINAL COURT FOR IMPRISONMENT,
WITH OFFENDER AND VICTIM BETWEEN STATES, DEPARTMENT OF HOMELAND
SECURITY ETAL

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioners respectfully pray that a writ of certiorari issue to review the judgement below.

OPINIONS BELOW
[x] For cases from federal courts:
The opinion of the United States Court Of Appeals appears at Appendix A or Exhibit 2C; 2A part 1
through 2D, 1A through 2D to the petition and is primary: (Please review all decisions that are of
concern. The Supreme Court of the United States, please discern and please judge all important and
relevant to our nation’s peace and national good, specifically, the domestic violence of women and the
upholding of child support laws and jurisdictional laws to protect women and children)
[x] reported at as pro se, privy only to copies US mailed, or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
Federal Claims Order 9/22/20 found in Federal Court Of Appeals 1/21/21.
The opinion of the United States District Court appears at Appendix B or Exhibit 1A through
1Z8 and is:
[ ] reported at Exhibit Subpoena IT, IK, IF Order of Consolidation, 1L, IN, lO, IV, IX; Also,
Exhibit II, 1U specifically line 1 and line 7, ILLEGAL. My Tulsa District Court Case FD2002-728 court case record noted as unofficial as they have a disclaimer on the public website.
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[x] For cases from state courts:
The opinion of the highest state court to review the merits appears at Appendix B to to the
petition and is:
[ x] reported at Exhibit IT, Exhibit 1W, Exhibit 1A through Z8; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the Tulsa County Police Dept./Criminal Court Tulsa County Oklahoma appears
at Appendix A or B to the petition and is:
[ ] reported at Exhibit 1A, IB, 1C, ID, IE, IF, Order of Consolidation IF, 1G, 1H
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished. (Note- also under DOJ-Federal Bureau)

( PLEASE review any exhibit enclosed, as enclosure suggests importance on other issues as well, as
many are intertwined, and the review of documents included as exhibits contributes to overall
understanding of the case. I am very disappointed I could not force the agencies and courts to fulfill
subpoenas, and am hoping that you have a way to access that information. I do realize that research
isn't your job, but I cannot force them, and they have totally disrespected federally issued legitimate
subpoenas. I can't do any more to make them not withhold evidence that is legal. It would be
wonderful if you could enforce the subpoenas or issue your own, so that the evidence file is complete
and the case stronger and more complete, and Justice is found and error reprimanded and others saved
in our great country from errors and potential errors in courts and agencies and departments that don't
follow law regarding subpoenas or even citizen's rights to their own records!!!!)

STATEMENT OF CASE

This case is about facts not feelings. When in the light of tyranny and abuse of power, we the
people are afforded the right to restitution and damages peaceably. When the government, especially
the judicial government is corrupt, and does not follow it's own local laws, state laws and federal laws,
it violates the rights of the United States of America, it's Constitution, and everything we the people
have fought for, FREEDOM, which is always essentially abuse of power, including the current issues
of a progressive and modem society, ability thereof. We have been violated by corrupt judges and
courts and agencies on the local, state and federal levels. On the federal level, initially alleging 7
distinct grievances. The grievances have been against mother and child, right to freedom and justice
from aggravated assaulter with child in utero by Judge Darlene Crutchfield, forced prostitution of heart
and body by Judge Clifford Smith for a new breastfeeding mother to see and not be separated from new
baby and tender small child, unordered financial protection of alimony in pregnancy of marriage,
unordered financial protection of mother and child in utero in the form of pregnancy support in
subsequent pregnancy after bench ordered divorce of February 19, 2003, aforementioned prostitution of
heart and body, hate and prejudiced judgments from the benches for setting forth of any rights, as
“unable to get along with and the problem”, the mother being less than 1% Greek/Italian and less than
1% Malian African, and a suspected Jew, but that Germans put Jews in ovens, the Germans can “smell”
Jewish blood, African American blood, and also, some feel that way about Greek/Italian blood, as
burnable, gasable, hangable, bodies all in one grave trash. This is a specific allegation towards not only
all the judges encountered in person, as the unfavorable rulings consistent and without aggravation
except request of rights gently, were perhaps possibly because of sexism, but especially provable in the
example of Judge Owen Evans, who in 2018 at trial, in which the male aggravated assaulter of
pregnant mother and child, who was allowed the right for 20 years to file in his home state any
allegation at whim by actions of Darlene Crutchfield, Joe Morris, Oklahoma Supreme Court, all three
being in direct violation of UCCJEA federal law, alleged the refusal of the mother to allow Christmas
visitation December 2015, in an Emergency Order, opening in effect a closed and still case previously
litigated at length, which resulted in pro se financial losses to myself from 2015-2019, including loss of
Jubilee prayer and pilgrimage to Israel, something could barely but could afford, for prayer, and had
fasted 40 days to attend, and the aggravated assault abuser, never brought to criminal court, but allowed
to harass in any way possible, found in his heart to destroy. If you think white males of German
descent cannot "smell” other races, you are very wrong. It is racism, a spiritual thing, and although
there is separation of church and state, it is a religious issue of demons. Nevertheless, in the United
States of America, we call it racism, genocide, and sexism. The United States of America has violated
it's own UCCJEA, UIFSA state child support laws, IRS laws to protect primary custodial parent,
ignored the criminal actions of provable aggravated assaults of mother and child in utero, not providing
safety to mother and child or society at large, subjecting the mother and her family to financial
devastation and hardship, as well as physical danger at the hands of aggravated assaulter, and
empirically proven stress and physical trauma. The United States of America must pay for that. After
almost twenty years of UCCJEA law dismissal, of home-state jurisdiction being where the majority of
family was, 2 of 3 or 3 of 4, both numbers being easily addable to majority were in TN, not OK. The
United States of America gave jurisdiction to OK. The United States of America cheated the mother of
alimony, pregnancy support in utero of unwed mother and child in utero, and also halved her child
support for almost 18 years in violation of it's own state laws, TN and OK being comparable. That is
violation of federal UIFSA and state child support laws that are not and should not, but in practice
obviously occur, be negotiable even by parental consent under duress and in this case forced to do so in

order to escape aggravated assaulter in a prostitution of heart and body situation, so mother could help
with confused and tender and failing potty training of child, because of emotional instability to the
child ordered by courts regarding the joint custody ordered by Judge Clifford Smith in around February
14, 2003, ignoring the aggravated assaults and criminal actions, and the mother and child, in which the
father said he would not allow them to leave without agreeing to those illegal terms, the mother and
child needing the required and lawful protection of the family law courts according to UCCJEA and
UIFSA standards, but not afforded any protection or upholding of the laws already put in place that
significantly help the economic and financial situation of mother and child. The United States of
America took her IRS child tax dependency credit every other year, awarding to the father who never
visited or saw his child at length long, provable and proven before later Judge Owen Evans in 2018
trial. Judge Owen Evans awarded father IRS offset of child support already approximately halved from
child support computation, because of claims father made that because the IRS didn't award him his
IRS child tax credit, then he shouldn't have to pay halved child support of approximately 3-4 months.
That is blatant UIFSA and IRS violations. All these trials at expense of mother and child in OK from
TN at her expense, a blatant UCCJEA violation, as the majority of the “family” resided in TN. Bottom
line, after years and years of continuous unfavorable rulings, judgements against for no known
reasonable reason, the mother suffered 3 seizures, her body completely gave out, and the United States
of America is responsible. Those three seizures occurred in 2018 March and May, before 2018 trial
regarding allegation made in 2015, never proven, and never justified, the Judge ignoring her requests
for financial renumeration so she could go to Israel late. That is racism, not sexism. Those three
seizures required over two years of neurological testing and also one year of physical therapy, as nerves
overcircuited and episodic epilepsy was the result. There were 3 ER visits, in which the doctors search
for different things, giving antispasmodic drugs at each visit. Those three seizures were stabbing, acute
and throbbing. They resulted in loss of hand function and foot and calf sensitivity. There is no EMG
of nerve damage made at that time in 2018, but almost a year later, after a year of physical therapy,
there was still measurable nerve damage, empirically proven in evidence of exhibits, in the right hand
and right sural calf. There were 2 MRls given to find or rule out Parkinson's or any other neurological
disorder. I could not push my body up with my right arm, my right hand began to draw up when not in
pain and it had to be forced back into alignment. The nerves did grow back and function was restored,
mostly in part to my personal will and determination. But that is not the case in many others
oppressed. One thing that has moved me to not stop in this fight has been a lady at the child support
enforcement office in the State of TN, who I had never met before, who following a meeting I had
there, in which I threatened nothing, followed me downstairs, and spoke with me, explaining, now I
know why, how that there were women raising children with $10 a month in child support in the United
States of America. About 5% of US A population is in limbo in child support and divorce law courts
any given time. How can the federal UIFSA demand states provide child support, so the government is
not solely responsible for every child in an unwed or in a broken family in the department of HHS,
and there be forced federally and state child support laws, but the courts and child support enforcement
agencies do not enforce it? I can only state my case, but the gravity of the issue is much more far
reaching than just myself and my daughter and family. It is abuse of power. The United States claims
to protect it's citizens but in practical effect, does not do so. So for following the law for almost twenty
years, my reward was stolen rights to putting aggravated assaulter behind bars, stolen jurisdiction
which resulted in heavy cost, stolen alimony, pregnancy support, IRS child tax credit rights, child
support computation rights, continued allowed abuse in the form of continued litigation over duration
2001-2020, stolen Jubilee in Israel which occurs once every fifty years, no recompense for false
litigation accusations or renumeration of any kind for excessive litigation against, and the pain of three
episodic seizures which could easily have ended in complete loss and deformity of writing or use of
right hand and foot. And forced prostitution of heart and body for child, as the insanity of the child was
not an option to the mother, which is absolutely unrecompensable, and beyond the value of $900

million expiation in all, $300 million for child in utero, as requested in federal court filing regarding 7
Grievances, and the forced prostitution of body and heart by the court is ultimately in the hands of
God’s eternal judgment. We demand satisfaction from the United States of America for these
grievances against us, as United States of America citizens, our state, federal and constitutional rights
not awarded, with such bias and such affliction that to have suffered losses including that of empirically
proven episodic epilepsy, never before and never since, as a result of the oppressions of the United
States of America’s actions against mother and children. We respectfully request the hiding of the
issues of prostitution acts and privacy of social security in any pleading or document made available to
public and in judgment.

REASONS FOR GRANTING THE PETITION
Reasonings for anything are essential. Let me begin by saying that I respectfully request this
court to grant us the justice and relief we have repeatedly and consistantly requested once at Federal
level. I believe in our country, and the due process of law, and I have not given up faith and hope
that our country cares for us still and will do the right thing by us.
Reasons are:
1. Fear of the Lord, and although many do not claim faith, or that it should enter a
government and judicial arena, all of my God is Truth and also Fear of the Lord as in
we are all subject to one another in faith, and love, and caring for our neighbor, and
being active to fight injustice where we find it. Further, the United States of America
is fundamentally a Judeo-Christian nation, always has been since colonization, and
will remain so. As in the majority of it's citizens claim a Jewish or Christian or
Judeo-Christian faith of some branch or denomination. The Fear of the Lord abhores
evil, and runs to Truth, quickly and plainly, perhaps in debate, to see all sides and to
discern the Truth from every angle, yet, Truth is Truth. It is the responsibilty of the
United States to make wrongs right, to it's citizens, and to follow Constitutional Law,
and what I have been through and subjected to as a USA citizen, without equal rights
to standardization and Justice is wrong, and deserves an apology in the form of
economic restitution according to the value of myself and my daughter who were
both robbed of rights to criminal protection from aggravated assaulter.
2. The Supreme Court is the endall for lower courts. They have no master other than
the Supreme Court and God Almighty. Therefore, noone suspects a little person to
file to Supreme Court, and they think they can run over everyone at their will. I
would not be complaining to you and wasting your time, if our rights had not been
REPEATEDLY ignored. It's almost as though I have no choice and still keep my
head up. I hate strife. I was a sincere and faithful wife, a sincere and faithfiil
mother, a sincere and faithful citizen; I am an evangelist, hopefully still now, and my
name is not smut by filing this, as the heart and body prostitution acts are very
embarassing to me and I am sure my family as well. Again, I respectfully request
privacy of those sensitive issues. But my life has been ruined by actions of the
United States of America courts, judges and agencies for almost twenty years,
economically, socially, and physically harmed by abuse endured and seizures in
2018. Those records from St. Francis, listed as exhibit, cannot rule out an anterior
heart attack, and my BNP levels more than doubled, a heart attack being 400, not
227. I believe I had seizures, but regardless, it is not right to put citizens through
such when the law protects them clearly in Federal UIFSA and UCCJEA statutes.
Further, the 2015 reopening of a case, without proof, simple proof such as an email
or proof of attempted communication of visitation request and the denial thereof, on
a lie for panicked "Emergency Enforcement" modification, is like me saying, "I turn
Sally in, she killed Michelle Obama yesterday!", and the courts believing it, and
arresting Sally while Michelle Obama standing there alive. It's utter madness.
Opening a closed, still as in quited litigation after much litigation prolonged,
covenant/contractual case, and destroying me for 4 years, robbing Jubilee, just
because they can. Again, those grievances are all listed, but it is grievance after
grievance after grievance. The lower courts and child support enforcement are
madness. Point 2 reasoning is that the Supreme Court must govern the lower courts,
as well as federal agencies, most importantly when they are in violation of blatant

federal laws and statutes that are enforced supposedly by UIFSA child support
enforcement, UCCJEA child custody between interstates, and Department of
Homeland Security, which deals with the safety of the United States citizens and the
uniformity of respect between states on federal issues that are designed not to take
away the rights of the states, but to enforce laws that make this the United States of
America. Examples are such as IRS computation of child tax dependancy credits
standards mandatory and the standardization of child support enforcement
mandatory according to each individual state's guidelines and most importantly, the
seperation of the criminal court from the domestic law court, and the refusal to roll
criminal issues like aggravated assault into an atmosphere of family and domestic
law "he said, she said", belittling the crimes as anger and retaliation between exes,
which doesn't make sense, because the filing of divorce in my case came after the
aggravated assaults I have listed here, and subjecting the nation and internationally
to violent offenders who should be in prison. I have told you, so it is in your hands.
Please mention, admonish and enforce laws already put into place to protect USA
citizens. Many single parents do not have the energy to complain to you, do not
know they can, do not believe they can, and most children have no idea they are
entitled to more than dollar general cereal every other week in child support. But
that lack of enforcement problem issue I am raising now, is why you have youth who
raise themselves, lack energetic tutorage from the primary parent who overworks to
stay afloat, and why your crime and violence stats are so high. Many young people,
their fathers are the judges who put them behind bars once they have committed a
crime, and that is their positive discipline and guidance in this life, their natural birth
father nowhere to be seen and child support unenforceable. Our crime stats are more
than 5 times as high as Europe, and cities like New Orleans and Memphis are very
murderous statistically. When I complained of assault, repeatedly, referring to
Vintage on Yale incident in which the aggravated assault involved a hot iron, the
police came later, saw it, gave my ex husband and 124 hours to seperate. He
admitted it. They did not arrest him or anything. Tulsa has high crime stats for a
midwest city. At trial in July 2018, the morning of, as my daughter and I were
staying in a hotel room in a good area by the mall on 71st St, my car was broken into
and the windows smashed, the morning of trial! You must do all you can to get crime
under control in this country. I fear because of lack of border control and military
and carribbean hostilities and bad governments, influx of cocaine, and that our
nation will become addicted, cocaine eating up our youth, and our roads unsafe by
cokeheads. My daughter is precious, a premed student now at Union University,
having survived COVID and it's hurdles academically, and what if after all we have
been through, she refuses drugs and a car with a driver on drugs hits her? My great
uncle was killed by being hit headon by a hopped up on vet anesthesia driver and
killed and one of his young twin granddaughters died with him. I am totally
cheating and taking this rare opportunity to share my concern and in prayer for us as
a nation, Democrat or Republican, we must enforce DEA and immigrations filters
and dismiss corrupt DEA and immigration, remembering cocaine is a $500 billion
dollar business, and some people can be bought. Back to my case. My case is an
example of others who have been robbed from, either because of sexism or racism
by the judges themselves, who often judge women as too emotional and unstable or
men and women by race and income. That is not the love of a family. Most of
United States of America is not New England, progressive in racial and sexist issues.
Those issues become difficult to prove, but the lack of reason remains, and that is the
proof of a bias that is ill. So the Supreme Court of the United States must uphold,
admonish and enforce the Constitution, the Federal Laws UIFSA and UCCJEA and
IRS et al, and interpret law that reveals bias in state and lower courts. I am begging

you to do so in the issues I have raised before you, small or great, as the ends never
justify the means, meaning we cannot live where there is no Justice. I have been
economically devestated. Right out of college, with a great future, for no reason.
And the laws set in place to protect me were not laid out to my exhusband that he
had to follow strictly, but my children became pawns and negotiationg pieces for
relinquishment from financial duties he had and rights afforded to me by law, when
interpreted and enforced strictly. Rather, our criminal case against him in OK was
rolled into family law, by order of consolidation, NOT BY AGREEMENT, that is a
lie from domestic law judge Darlene Crutchfield, I wasn't even there, and my baby
was due in a few weeks, and we were filing in TN, jurisdiction being there, where
childen were bom safely, see exhibits, divorce to be legally filed there, and then
while breastfeeding newborn, OK assumed jurisdiction in blatant violation of
UCCJEA Federal law, warrants were issued for my arrest in OK by Darlene
Crutchfield, stealing my right to joy under Amendment 14, and causing undue stress
to mother and child, and then the entire criminal case was dropped on a technicality
of hired lawyer in Tulsa facilitating the criminal trial in the then domestic law court,
and advising of jurisdiction in TN, not showing up for a hearing. So it was as though
the assaults never happened and they subjected me to my abuser for almost twenty
years forcing me to share custody and visitation rights with someone who obviously
did not want it, according to his actual record of visitations also in this filing as
exhibit and admitted to in court in July 2018 on record. Those Tulsa District Court
subpoenas were not responded to, to be provided to you as relevant evidence for you,
as I was ignored after sending federal issued subpoenas according to their
instructions. We would make plans and he would not show, or change at last minute,
or never request, leaving my daughter to wonder if he was coming for his weekend.
It has been abuse for years. An assaulter is someone who is an abuser. They will
continue to abuse in any way they can. How do the judges NOT know that? Why
would they subject us to him and no money for years and years and demand trial
after trial and hearing after hearing in OK, upon pains of arrest or loss of custody,
which requires financing of transportation additional to visitation, legal fees if can
afford, a safe hotel stay expense and costs of fees and fines to even be pro se and loss
of income from employment, if able to hold a normal job with the plethora of legal
activity. The case is found at oscn.net and there are three under Duncan and
Johnson, one is a protective order case from around 2001-2002, which was rolled
into domestic law and dropped, no justice of criminal prosecution being made
available to victimized mother and in utero child whatsoever, so that OK could
maintain jurisdiction of father's filing for divorce illegally, forced by his attorney
Lynn Worley, but in Truth the criminal case could be tried in OK and the divorce law
in TN, as they are seperate issues. And that is the legal thing to do under UIFSA and
UCCJEA law. Another on oscn.net is the lengthy divorce and litigation I endured
without any recompense FD-2002-728, and the third is my son, bom out of wedlock,
who they had no right to, whatsoever, but they filed a case for. That case is an
exhibit in this document as attached evidence and the protective order is federally
subpoenaed information that the Tulsa police refuse to give to me. All that is
violation of Amendment 14, it is irrational, it becomes impossible to ever buy a
home or remain afloat. I have leased purchased repeatedly and worked two jobs at
once to keep my head above water and raise my children the best I could, and love
them both dearly, although we lost one in an accidental drowning. I have nothing
financially now. No savings, not money for Israel, no money for charities I love, no
clothes, no decent supplies, barely enough for food, and no home, living with my
parents splitting rent. I hold a BSBA from Oral Roberts University and a license in
cosmetology, and I care for two sick parents who need more help than Medicare will

afford them. I homeschooled my daughter since third grade also. She graduated
class of 2020, amidst COVID pandemic. I have not burdened the public school
system, and aside from the seizure’s care I endured at the hands of evil ex and evil
judges who allowed it and also not recompensing once discovered the Truth of false
allegation of denied 2015 Christmas visitation, which opened the whole closed and
still case to begin with, very rarely ever needed socialized medecine. When courts do
not follow the law, it hurts people like me. Irreparably without a filing such as this.
Judges have GOT to enforce full child support according to federal or state child
support computation guidelines, for each and every child, whether the father has
parental rights or not, and that can’t be offset because it is used to finance primary
parent's mortgages and maintain budgets, IRS child tax credits to primary parent
according to law as tax software does not always allow for a split of that if the
primary parent had the child 12 months or the majority of the year, standardized
alimony computation based on net worth and length of marriage and standardized
computation pregnancy support for mothers with children in utero, wed or not, and
that none of those things can offset child support, or one another, all seperate issues,
and if paternity in dispute, caught up after paternity established, by a standard
unnegotiable way and by legal IRS records. When courts do not follow those laws,
it hurts eveiyone except greedy arguing lawyers, it hurts pregnant mothers in need of
safety and nutrition, babies, children, youth, and approximately 5% of the USA
population at any time in limbo in these courts and agencies. Then also the other
approximately 95% who have to pay for additional HHS programs to make up the
slack, and for the criminal justice system because the youth are angry because they
are unloved, begrudged and hated by one or both parents, when standardization of
these issues makes everything simpler and acceptable. If non custodial parents pay
more money in support, they will be inclined to be involved, if allowed, and that
benefits the child as long as the parents aren’t criminals. Also, standardization of
those things removes children as pawns, and the True primary custodial parent is
easy to see, and that is for the child, not the greedy lawyers and judges with political
agendas. If marriages that end require alimony, there will be less divorce and less
adultery as a nation, because it's not that easy. And if it is standardized then there
remains protection for either party from lawyer poaching in agreement with judges
corrupt. Who do they have to answer to? Because divorce law courts are a mess
right now, and there is gross lack of child support enforcement or criminal protection
in the police force, and it has been going on for years. And juvenile courts and
rehabilitation and prisons are approximately $40,000 a year, whenever the fathers or
non custodial mothers should be footing the bill, and not provoking children unto
wrath by no love or not caring if basic needs met. Again, it is up to the Supreme
Court to force them to adjudge. What can I do but complain and bring my case?
Thank you for hearing my reasonings.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,
o

Date:

